NO.__________
IN THE
SUPREME COURT OF THE UNITED STATES
SAMER ABDALLA
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

I, Michael C. Holley, counsel for petitioner, certify that the petition for certiorari in the
above-captioned case contains 3574 words, excluding the parts of the petition that are exempted
by Rule 33.1(d).

November 24, 2020

s/ Michael C. Holley
Michael C. Holley (BPR #021885)
Assistant Federal Public Defender
810 Broadway, Suite 200
Nashville, Tennessee 37203-3805
(615) 736-5047

66

